NO.

• «*>

A
&

1

IN THE

SUPREME.COURT OF THE UNITED STATES
V

JAMESON ROSADO,
Petitioner,

i

11

1

V.

UNITED STATES ATTORNEY GENERAL & STATE OF NEW JERSEY,
Respondent.
On Petition for Writ of Certiorari to the
United State Court of Appeals, Third Circuit

FILED
MAY 2 8 2021
SUPRCEM^FrTj!^LERK
US.

PETITION FOR WRIT OF CERTIORARI

Jameson Rosado, Pro Se
58 Heald Street
Carteret, NJ 07008
(732) 366-4534
Email: Jamesonrosado@gmail.com

RECEIVED
AUG -9 2021

QUESTION PRESENTED
QUESTIONS PRESENTED FOR REVIEW
1.

Whether Jamie was ordered for the FFD to ultimately have him removed from

federal service in retaliation for pursuing prior EEO activity;
2.

Whether Mike Ward referred Jamie to the Inspection Division in retaliation for

disclosing his EEO activity during a meeting in April 2010
3.

Whether the allegations of insubordination and misconduct were clustered together

to exaggerate the severity as a pretext for discrimination and retaliation to remove Jamie
for engaging in EEO activity;
4.

Whether the Agency's removal ofJamie was based on discriminatory and retaliatory

motives despite receiving successful performance reviews and having been found fit for
duty;
5.

Whether Jamie was removed in retaliation for his EEO activity related to the

current case as well as previous EEO activity;
6.

Whether Mike Ward's referral of Jamie to the Inspection Division for

insubordination was in retaliation for an EEO investigation which Mr. Ward was present;
7.

Whether Mike Ward's referral to the Inspection Division was based on retaliation

for failing to follow the chain of command when Jamie was "put off' by his first and
second line supervisors;
8.

Whether the Agency's alleged reasons for ordering the FFD in abundance of

caution based on statements Jamie made on August 30, 2011 are a pretext for retaliation.
it

9.

Whether the ...District- Court prejudiced BOTH die initial processing of „the

complaint AND appeal or BOTH.
10.

Whether Martin F. Zielinski's purported eleven (11)

stressors relied upon in recommending the FFD were a pretext for
retaliation as many factors enumerated are common stress factors to any ordinary person
and do not pose a high security risk. Additionally, Jamie's wife was not, in fact, leaving
him;
11.

Whether Mike Ward's referral to the Inspection Division for misconduct,

insubordination, and miscellaneous violations were a pretext for retaliation and actually
motivated by discrimination to get Jamie removed because of mental illness;
12.

Whether the allegation of misconduct that Jamie was not performing his duties

despite receiving successful performance evaluations signed by his first and second line
supervisor was a pretext for retaliation for engaging in prior EEO activity;
13.

Whether the Agency's allegation of insubordination for going outside his chain of

command regarding his prior EEO matter was a pretext for retaliation when Jamie had
previously received an email from Mike Ward stating "the FBI operates via an open door
policy" and the chain of command "does not preclude anyone from reaching out to higher
levels of management if he/she feels the need".
14. Why did the District Court engage in exparte communications with other State of NJ
Judges while prejudicing my complaint?
15. Why did for former Magistrate Judge Joseph Dickson burden me with additional
m

losses AFTER my matter .was erroneously dismissed?
16. What Court will remedy the reprisal established by the EEOC, in addition to FBI
Newark witnesses?
17. When can appellant expect relief, including reinstatement, which he has waited a
decade for?

tv

PARTIES INVOLVED
Third Circuit Court of Appeals
601 Market St Ste 18614,
Philadelphia, PA 19106
Case 20-2801
District Court, Newark
50 Walnut St Rm 4015,
Newark, NJ 07102
2-15 CV 03999; Rosado v. AG
US Attorney’s Office Camden
401 Market Street
Camden, NJ 08102
US Attorney’s Office
970 Broad Street
Newark, NJ 07102
NJ Appellate Division Clerk's Office,
P.O. Box 006
Trenton, New Jersey, 08625
2-15 cv 03999,1201W2020 000354 & appeal A002741-20T4
1201XTR2020-2 & appeal A000819-20
Middlesex County Prosecutor’s Office
25 Kirkpatrick St #3
New Brunswick, NJ 08901
2-15 cv 03999,1201W2020 000354 & appeal A00274U20T4
1201XTR2020-2 & appeal A000819-20

State matters involve Supreme Court’s recent unanimous ruling re
Caniglia v. Strom, 20-157 ( see appendix 38a-59a, inclusive)

v

CERTIFICATE OF COMPLIANCE
Rosado v. AG, US & State of NJ
As required by Supreme Court Rule 33.1(h), I certify that the
petition for a writ of certiorari contains 4,803 words, excluding the parts
of the petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
This writ is also submitted timely.
Executed on August 3, 2021

vi

TABLE OF CONTENTS
Page
QUESTION PRESENTED..............

n-IV

PARTIES
INVOLVED.......................................

v

CERTIFICATE OF COMPLIANCE

Vll

TABLE OF CONTENTS

Vll

TABLE OF AUTHORITIES

Vlll

PETITION FOR A WRIT OF CERTIORARI

1

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE WRIT

25

CONCLUSION

26

vu

Page

TABLE OF AUTHORITIES

The Equal Employment Opportunity Commission's regulations allow an
Administrative Judge to issue a decision without a hearing when he or she
finds that there is no genuine issue of material fact. See 29 C.F.R. §
1614.109(g). This regulation is patterned after the summary judgment
procedure set forth in Rule 56 of the Federal Rules of Civil Procedure.
Caniglia v Strom, 20-157, US Supreme Court, March 24, 2021 (appx. 38a-59a)

ADA and the Rehabilitation Act. See Donahue v. Conrail,
224 F.3d 226,232 (3d Cir.2000);

.........................................

12

Anderson v. Liberty Lobby, Inc., 477 U.S. 249, 255 (1986). ......

10

Carlton v. Hisstic Transp., Inc., 202 F.3d 129,
134 (2d Cir.2000); ........................................................................

10

Gallo v. Prudential Residential Servs.,
22 F.3d 1219,1224 (2d Cir.1994);

.........................................

10,12

Danzer v. Norden Sys., Inc., 151 F.3d 50, 54 (2d Cir.1998);......

10

Weber v. Parfums Givenchy, Inc., 49 F.Supp.2d'343, 35
(S.D.N.Y.1999);

........................................................................

10

McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973);,..........

11

Sista v. CDC Ixis N Am., Inc., 445 F.3d 161,169 (2d Cir.2006);

11

Furnco Construction Co. v. Waters, 438 U.S. 567, 576 (1978);....

11

Texas Department of Community Affairs v. Burdine, 450 U.S. 248, 253
(1981);

.........................................................................................................

11

Reeves v. Sanderson Plumbing Products, Inc., 530 U.S. 133, (2000);
St. Mary's Honor Center v. Hicks, 509 U.S. 502,519 (1993);....................

11

Bickerstaff v. Vassar College, 196 F.3d 435, 448 (2nd Cir. 1999);...

....11

Holtz vTRockefeller & Co., Inc., 258 F.3d 62, 69 (2d Cir. 2001);........

....12

.. t

vn|

Schwapp v . Town of Avon, 118 F.3d 106, 110 (2d Cir.1997);.........

.12

Patane v. Clark, 508 F.3d 106, 115 (2d Cir. 2007);

13
13
13

..............................

Dennis v. Osram Sylvania, Inc., 549 F.3d 851 (2008); —....................
Ngiwen v. City of Cleveland, 229 F.3d 559, 563 (6th Cir. 2000);...
EEOC v. Avery Dennison Corp., 104 F.3d 858, 861 (6th Cir. 1997);
Clark County School District v. Breeden, 532 U.S. 268, 273 (2001);

.. ..14

15

Singfield v. Akron Metro. Hous. Auth., 389 F.3d 555, 563

15

(6th Cir.2004);..............................................................
Santos v. Costco Wholesale, Inc., 271 F.Supp.2d 565,

575

(SDNY)2003;.........................................................

15,16

Suggs v. Port Auth. of N.Y. and N.J., 1999 WL 269905, at *6
(S.D.N.Y.1999) (six months sufficient);................................................
Lewis v. A.B. Dick Co., 231 F.3d 1016, 1021 (6th Cir. 2000);............

16
17

Dalesandro v. Potter, EEOC DOC 01A50250, 2006 WL 266297
(2006);...........................................................................................................
Thurman v. Yellow Freight Sys., 90 F.3d 1160,1166 (6th Cir. 1996);
Texas Dept, of Comfy. Affairs v. Burdine, 450 U.S. 248,256 (1981);.

18
18
18

McKinnon v. Potter, EEOC Appeal No. 01200546921
(April 17, 2008);..........................................................................................

22

Pedersen v. Department of Justice, EEOC Request No. 05940339
(February 24, 1995);....................................................................................

23

Bang v. U.S. Postal Serv., EEOC Appeal No. 01961575
(Mar.26,1998);.................................................................... ........................
Schwapp v. Town of Avon, 118 F.3d 106, 110 (2d Cir.1997);...........

23
....24

Belfi v. Prendergast, 191 F.3d 129,135 (2d
Cir. 1999).............................................................................................. .......

Statutes
IX

24

27

NJ 2C-33-4A,

Other
Rule 37 - Failure to Compel or Cooperate in Discovery

27,28

29 C.F.R. § 1614.109(g)................................................ .

12

Title VII

27

Second Amendment, Constitution of the United States

27

Fourth Amendment, Constitution of the United States.

27

x

PETITION FOR A WRIT OF CERTIORARI
STATEMENT OF THE CASE
Petitioner Jameson Rosado respectfully requests the issuance of a
writ of certiorari to review the judgment of the United States Court of
Appeals for the Third Circuit.
The decision of the United States Court of Appeals for the Third
Circuit Court of Appeals can be found at Pet. App. la.
JURISDICTION
The Third Circuit entered judgment on March 10, 2021. See Pet.
App. la.
This Court’s jurisdiction is invoked under 28 U.S.C. § 1254.
Before getting into the substantive nature of this document, the
appellant, referred to as “Jamie” in this pleading is a pro se litigant in
which the District Court prejudiced AND exploited BOTH during & after
this civil matter was erroneously dismissed. Specifically concerning
summary judgment, because the appellant is a pro se litigant, he filed a
l) 106-page motion 2) opposing summary judgment, 3) written by 3
attorneys, 4) twice. Because he is a pro se litigant, he initially filed the
1

document (DOC 1-3) on the Newark District Court’s website on June 12,
2015. It was not terminated until August 6, 2018 by former Magistrate
Judge Joseph Dickson, as “premature”, with a new deadline for re-filing
on June 6, 2019. On July 24, 2020, Chief Judge Freda Wolfson
reassigned the matter to Judge John M. Vazquez, whom erroneously
dismissed it on August 5, 2020. Two days AFTER the dismissal, former
Magistrate Judge Joseph Dickson inappropriately dispatched 2 U.S.
Marshals to the Carteret, NJ Police Department in an effort to intimidate
the appellant, FOR A THIRD TIME, and this visit was a pretext visit
designed to “entrap” appellant to contact the former Magistrate Judge so
a second inappropriate unwarranted & unlawful visit would occur days
later, on August 13, 2020, when appellant was burdened with State
charges, losses of over $3,000 to address State appeals which ultimately
had to be withdrawn. Also, those State charges were in the name of
another Carteret police officer on behalf of the Judge, and resulted in my
firearms being confiscated and a permanent ban.
Because l) the District Court took advantage of appellant as a pro se
litigant, and 2) because of a number of returned submissions by the US
Supreme Court, the Appellant will be filing an additional.separate
2

pleading addressing the State charges.
PLEASE DO NOT RETURN THIS DOCUMENT.
It should also be noted, during BOTH federal civil matters AND
fabricated State charges, evidence was withheld by the State & Federal
government violating both appellant’s due process rights, and rules of
discovery. In June 2017, the District Court generated an “active shooter
bulletin”, which the District Court refused to turn over twice requested.
The bulletin l) is dated, 2) has Judges Esther Salas and Joseph Dickson’s
names on it (the judges assigned) and also 3) had my FBI employment
photo on it, 4) referencing the very pending FBI litigation, which as
Courts are aware • posting that document prematurely prejudices the
complaint.
SUMMARY JUDGMENT MUST BE DENIED BECAUSE THERE
ARE MATERIAL ISSUES IN DISPUTE WHICH REQUIRE A
HEARING:
1.

The accepted claims in this case overlap with Jamie's subsequent

EEO, the nature of which being Jamie's termination for engaging in the
current and previous EEO activity. Thus, the claims of discrimination
and retaliation in this case are a "means to an end" as Jamie's removal
3

'was based upon the expansion of the inspection Division investigation
which is disputed in this action as pretextual. If your honor feels
compelled to consolidate this case with the next case, we would consent to
such consolidation.
2.

Based on the facts, evidence, and testimony in this case, a

reasonable juror could find that the Agency's actions against Complainant
were in retaliation for protected EEO activity.
3.

The facts, evidence, and testimony in this case all demonstrate that

Jameson Rosado was ordered for a Fitness for Duty Exam in retaliation
for engaging in EEO activity. Additionally, the evidence shows that Jamie
was subject to reprisal when the Inspection Division expanded its
investigation to include matter disclosed in his previous EEO.
4.

The record contains numerous inconsistencies, contradictions,

and conflicting evidence regarding the reasons^ (l) the Inspection Division
investigation was expanded; and (2) the fitness for duty (FFD) was
scheduled. These inconsistencies and weaknesses blatantly demonstrate
pretext and prove that the Agency's proffered reasons are unworthy of
credence necessitating a hearing. Further, because this case can only be
resolved by weighing conflicting evidence, issuing a decision without
4

holding a hearing is not appropriate.
5.

Even if the Agency's facts alleged in the Agency's Motion are

undisputed, there still exists numerous issues of material fact in dispute
warranting a Hearing. Among those genuine material issues of fact are in
the questions presented.
APPELLANT’S STATEMENT OF UNDISPUTED FACTS
I.

Jamie engaged in protected activity including initiating EEO

contact. ROI Exhibit 9, Jameson Rosado Sworn Statement FBI Bates 163
and 164.
2.

On June 8, 2011 Jamie emailed Sandra Bungo detailing the

substance of his EEO activity. ROI Exhibit 36, FBI Bates 286
3.

On June 8, 2011 Supervisory Special Agent, Amanda Moran, who

was assigned to investigate allegations of misconduct and insubordination
surrounding Jamie, became aware of the substance of Jamie's EEO claim
when Sandra Bungo forwarded Ms. Moran an email from Jamie detailing
his EEO activity and provided a summary of his EEO retaliation
complaint. ROI &Exhibit 36, FBI Bates 286.
4.

Sanda Bungo, among others, approved the decision to expand the

investigation referred by Mike Ward. See Exhibit E, Moran Deposition
5

Page 33, line 3.
5.

Ronald Lyman did not require employees who heard the alleged

threatening statements regarding "Hurricane Jamie" to document their
concerns in writing. See Exhibit F, Velazquez Deposition, Page 21 line(s)
23-25 and Page 22 (1-4).
6.

Mr. Lyman has also said Jamie "unknowingly made threats." See

Exhibit G,Rosado Statement dated September 12, 2011, Page 2.
7.

Jamie's statements were not viewed as an imminent threat because

when Judy Stone contacted Mike Ward on September 29, and he did not
get back to her until November 8, 2011. See Exhibit D, Stone Deposition,
Page 32, line(s) 7-11.
8.

Those employees who heard the statements regarding "Hurricane

Jamie" had the initial reaction to "shrug it off as another silly... Jamie
Rosado quote." See Exhibit F, Velazquez Deposition, Page 22 /line(s) 2-3.
9.

Mike Ward's referral to the Inspection Division states Jamie has

never threatened nor would resort to work place violence. ROI Exhibit 25
p. 3, FBI Bates 246.
Jamie advised Mike Ward via email that his work product suffered as a
result of a hostile work environment. Specifically, Jamie stated
6

"management needs to also be aware if the conditions continue as such,
performance may suffer, for that's what happens when it becomes
unbearable in coming to work. ROI Exhibit 21 page 1.
11.

Jamie performed work for the Black Eagle Investigation

working the command post and NCIC work but was not given an award
which other employees received. Id.
12.

Jamie felt that no matter what he did his performance would never

be acceptable in light of the protected EEO activity he was engaged.
13.

Jamie received a positive rating on his 2010 PAR. See Exhibit H,

Ward Deposition, Page 21, line(s) 5-8.
14.

Jamie received a successful rating on his 2009 PAR because "he did

what we asked of him... we have other employees in the office that
perform far below" Jamie. See Exhibit H, Ward Deposition, Page 22,
line(s) 6-8.
15.

The eleven stressors indicated by Marty Zielinksi had no bearing on

Jamie's performance at work as evidence by two consecutive successful
performance ratings in the field intelligence group. See Exhibit A, Rosado
Deposition, page 41 line(s) 22-25.
16.

The 11 stressors Marty Zielinksi relied upon in suggesting the FFD
7

are personal stressors that go on in "everybody’s life." See Exhibit'A,
Rosado Deposition page 42 hne(s) 17-18.
17.

On February 18, 2011 Mike Ward sent Jamie an email stating "the

FBI operates via an open door policy." Although Mr. Ward encouraged
Jamie to follow the chain of command "it certainly does not preclude
anyone from reaching out to higher levels of management..." ROI
Exhibit 22, page 1 FBI Bates 235.
18.

On February 18, 2011 in the same email to Jamie, Mike Ward

stated that "there will be no reprisal if you deem it necessary to reach out
to anyone at FBIHQ including the Director's Office." Id.
19.

Jamie did not follow his chain of command because he felt he was

not being properly heard in his office as told to him by Marty Zielinski on
September 1, 2011. He felt DD Pistole may be able to assist with his EEO
matter, as well as other situations that arose in the NK office. See Exhibit
G, Rosado Statement dated September 12, 2011 Page 3.
20.

Additionally, Jamie did not follow his chain of command because he

was very frustrated with how slow the EEO process is. Id at 2. He did not
feel he was getting and adequate response from NK management and felt
it necessary to reach out to someone at FBIHQ, which he understood to be
8

his right. Id at 3.
21.

In or about April of 2010 Mike Ward became aware Jamie had

engaged in protected EEO activity. ROI Exhibit 10 page 2 FBI Bates 173.
22.

The FFD occurred on December 5, 2011. The evaluators concluded

Jamie was fit for duty. ROI Exhibit 15, page 6, FBI Bates 215, Jamie's
Protected Activity
23.

In 2009, Jamie initiated an EEO action due to discriminatory

treatment he experienced in the Newark Field Office. ROI Exhibit 9 FBI
Bates 163.
24.

Jamie engaged in protected EEO activity when he informed Mike

Ward of his pending EEO matter in a meeting in April of 2010. ROI
Exhibit JO FBI Bates 173.
ARGUMENT
I.

Legal Standards

The Equal Employment Opportunity Commission's regulations allow an
Administrative Judge to issue a decision without a hearing when he or
she finds that there is no genuine issue of material fact. See 29 C.F.R. §
1614.109(g). This regulation is patterned after the summary judgment
procedure set forth in Rule 56 of the Federal Rules of Civif Procedure. In
9

ruling on a motion for summary judgment, a court's function is not to
weigh the evidence but rather to determine whether there are genuine
issues for trial. Anderson v. Liberty Lobby, Inc., 477 U.S. 249, 255 (1986).
The evidence of the non-moving party must be believed at the summary
judgment stage and all justifiable inferences must be drawn in the non-moving party's favor. Id. If a case can only be resolved by weighing
conflicting evidence, summary judgment is not appropriate.
Summary judgment is "ordinarily inappropriate" in employment
discrimination cases, such as this one, where the employer's intent and
state of mind are in dispute. See Carlton v. Hisstic Transp., Inc., 202 F.3d
129, 134 (2d Cir.2000); Gallo v. Prudential Residential Servs., 22 F.3d
1219, 1224 (2d Cir.1994). In discrimination cases, summary judgment
may not be granted simply because the court believes that the plaintiff
will be unable to meet his or her burden of persuasion at trial. There
must either be a lack of evidence in support of the plaintiffs position, or
the evidence must be so overwhelmingly tilted in one direction that any
contrary finding would constitute clear error. See Danzer v. Norden Sys.,
Inc., 151 F.3d 50, 54 (2d Cir.1998); Weber v. Parfums Givenchy, Inc., 49
F.Supp.2d'343, 354 (S.D.N.Y.1999).
10

Rehabilitation claims are analyzed using the framework set forth in
McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973). See Sista v.
CDC Ixis N Am., Inc., 445 F.3d 161, 169 (2d Cir.2006).l Under this
framework, Jamie must initially establish a prima facie case by
demonstrating that he was subjected to an adverse employment action
under circumstances that would support an inference of discrimination.
Furnco Construction Co. v. Waters, 438 U.S. 567, 576 (1978). The burden
then shifts to the agency to articulate a legitimate, nondiscriminatory
reason for its actions. Texas Department of Community Affairs v.
Burdine, 450 U.S. 248, 253 (1981). To ultimately prevail, Jamie must
prove, by a preponderance of the evidence, that the agency's explanation
is pretextual. Reeves v. Sanderson Plumbing Products, Inc., 530 U.S. 133,
(2000); St. Mary's Honor Center v. Hicks, 509 U.S. 502,519 (1993).
Discrimination cases, like this case, are often NOT based on direct
evidence because “]employers are rarely so cooperative as to include a
notation in the personnel file that the firing is for a reason expressly
forbidden by law." Bickerstaff v. Vassar College, 196 F.3d 435, 448 (2nd
Cir. 1999). Direct evidence of discriminatory intent is rare, and often
must be inferred from circumstantial evidence found in the pleadings.
11

Holtz v. Rockefeller & Co., Inc., 258 F.3d 62, 69 (2d Cir. 2001). Because
direct evidence of an employer's discriminatory intent is rarely be found,
"affidavits and depositions must be carefully scrutinized for
circumstantial proof which, if believed, would show discrimination." Gallo
v. Prudential Residential Servs., L.P., 22 F.3d 1219, 1224 (2d Cir. 1994).
For the foregoing reasons, motions for summary judgment in employment
discrimination actions should be evaluated with special care and greater
caution must be exercised in granting summary judgment in employment
discrimination cases. See Schwapp v. Town of Avon, 118 F.3d 106, 110 (2d
Cir. 1997).
l.The same analytical framework governs claims under both the ADA and
the Rehabilitation Act. See Donahue v. Conrail, 224 F.3d 226,232 (3d
Cir.2000).
II.

A Reasonable Juror May Find That Complainant Established a

Prima Facie Retaliation Claim
Jamie can establish a prima facie case of retaliation because, as set forth
below,
(l)

he engaged in statutorily-protected activity, (2) he suffered adverse

employment action, and (3) the protected activity and adverse
12

employment action were causally connected. See Patane v. Clark, 508
F.3d 106, 115 (2d Cir. 2007), Dennis v. Osram Sylvania, Inc., 549 F.3d
851 (2008). "The burden of establishing a prima facie case in a retaliation
action is not onerous, but one easily met." Nguyen v. City of Cleveland,
229 F.3d 559, 563 (6th Cir. 2000).
Jamie engaged in EEOC protected activity dating back to 2007. See
Jamie's Declaration at 12. Jamie's protected activity also included his
EEO complaint in 2009. See ROI Exhibit 9, page 3. Based on the evidence
it is clear that Mike Ward and Amanda Moran were aware of the
instances where Jamie engaged in protected activity.
SAC Mr. Ward was physically present in the office for a two-week
investigation of Jamie's previous EEO related claims. In April of 2010,
Jamie requested a meeting with Mr. Ward. As a result of their meeting,
Mr. Ward became aware of Jamie's participation in the EEO process. See
ROI Exhibit 10 p. 2. Mike Ward's referral on March 14, 2011 references
email correspondence with Jamie on March 9, 2011 in which EEO
matters were discussed. As a result of Mr. Ward's referral, Amanda
Moran became aware of Jamie's EEO activity and claims against the
Agency. ROI Exhibit 25, page(s) 2 and 3. Moreover, Amanda Moran may
13

have also become aware of Jamie's participation in the EEO process in or
around March of 2011. See ROI Exhibit 11 page(s) 2 and 3.
The Agency cannot contest the fact that Jamie suffered adverse
employment action. Additionally, the Agency's papers are deficient
because it does not argue Jamie failed to establish a Prima Facie Case.
We can only take that to mean Jamie has established a Prima Facie Case.
Notwithstanding, Jamie demonstrates sufficient evidence to raise a
genuine issue of material fact regarding whether a causal connection
could be established between his protected activity and the adverse action
he suffered. To establish the causal connection Jamie must "put forth
some evidence to deduce a causal connection between the retaliatory
action and the protected activity and requiring the court to draw
reasonable inferences from that evidence, provided it is credible."
Nguyen, 229 F.3d at 556 (quoting EEOC v. Avery Dennison Corp., 104
F.3d 858, 861 (6th Cir. 1997)). In making this determination, an
Administrative Judge must view the evidence in
light most favorable to the non-movant and must draw all reasonable
inference in the non-movant's favor.
The record is replete with evidence of a causal connection between
14

" Jamie's protected activity and the Agency’s retaliatory action. An
inference of a retaliatory motive must be drawn in Jamie's favor in that
such a short period of time passed between the retaliatory acts and the
protected activity. Close temporal proximity between a plaintiffs
protected action and an employer's adverse employment action has been
held to be sufficient to establish the requisite causal connection between a
protected activity and retaliatory action. See e.g., Clark County School
District v. Breeden, 532 U.S. 268, 273 (2001).
SAC Mike Ward made Amanda Moran aware of Jamie's protected EEO
activity when he forwarded his referral to the Inspection Division on
March 14, 2011. Thereafter, on June 3, 2011 Amanda Moran expanded
her investigation. ROI Exhibit 33. Because brief intervals of time exist
between Jamie's ongoing protected activities and the adverse action he
suffered, genuine issues of material fact exist regarding a causal
connection. See e.g. Singfield v. Akron Metro. Hous. Auth., 389 F.3d 555,
563 (6th Cir.2004) (finding that 3-month interval between protected Title
VII activity and (adverse action) constituted sufficient evidence to
establish a prima facie causal connection! Santos v. Costco Wholesale,
Inc., 271 F.Supp.2d 565, 575 (S.D.N.Y.2003) (approximately three months
15

sufficient to establish prima facie case); Suggs v. Port Auth. of N.Y. and
N.J., 1999 WL 269905, at *6 (S.D.N.Y. 1999) (six months sufficient).
The fact that Jamie's earlier EEO protected activity and ordering the
Fitness for Duty Exam were causally connected is demonstrated by
evidence that Jamie's statements regarding "Hurricane Jamie" were non­
threatening and not taken seriously. See Exhibit F, Velazquez
Deposition, Page 22 line(s) 2-3. Further, Judy Stone's signed sworn
statement states she "did not believe Mr. Rosado represented an
imminent threat to himself or others." ROI Exhibit 10 FBI Bates 213.
However, the Agency relies on these out of context, over exaggerated
statements to order the FFD. Additionally, the eleven stressors relied
upon by Martin Zielinksi in advising a FFD are stressors common to
ordinary people. ROI Exhibit 14 page 3. Jamie received two consecutive
performance ratings while allegedly experiencing the above mentioned
eleven stressors.
In sum, a trier of fact could easily conclude from the above facts and
evidence that the Agency's adverse employment actions against Jamie
were connected to, and in retaliation, for his continuous engagement in
protected activity, in violation of Title VII and the.Rehabilitation Act.
16

III.

'The Agency's'Reasons are Pretextual in Nature and Genuine Issues '

of Material Fact Exists Precluding Summary Judgment
1)

The Agency's Reasons for ordering the FFD Are Pretextual in

Nature and Genuine Issues of Material Fact Exists Precluding Summary
Judgment
The Agency only maintains that it can articulate a legitimate,
nondiscriminatory reason for its action. Notwithstanding, Jamie
demonstrates sufficient evidence to raise a genuine issue of material fact
regarding whether the alleged legitimate, nondiscriminatory reason
articulated is a pretext for retaliatory treatment. Even if the Agency can
proffer legitimate, nondiscriminatory reasons for its actions, which Jamie
maintains that it did not, Summary Judgment is precluded as the
Agency's reasons are pretextual in nature and genuine issues of material
fact exist on the record.
"A plaintiff can demonstrate pretext by showing that the proffered reason
(l) has no basis in fact, (2) did not actually motivate the defendant's
challenged conduct, or (3) was insufficient to warrant the challenged
conduct." Lewis v. A.B. Dick Co., 231 F.3d 1016, 1021 (6th Cir. 2000).
Pretext can also be demonstrated by "showing weaknesse s,
17

implausibiliti.es’ inconsistencies,' iricoherencies, or contradictions in the "*
[Agency's] proffered reasons for its action that a reasonable fact finder
could rationally find them unworthy of credence." Dalesandro v. Potter,
EEOC DOC 01A50250, 2006 WL 266297 (2006). As set forth below, the
Agency's proffered reasons regarding the adverse action Jamie suffered,
specifically ordering the FFD and expanding the Inspection Division
Investigation are "unworthy of credence." Thurman v. Yellow Freight
Sys., 90 F.3d 1160, 1166 (6th Cir. 1996) (citing Texas Dept, of Comfy.
Affairs v. Burdine, 450 U.S. 248,256 (1981)). Rather, the Agency was
motivated by discrimination and retaliation.
As set forth in more detail below, numerous material issues of fact
exist regarding ordering the FFD and expanding the Inspection Division
investigation. A hearing is required to make a finding on these material
issues of fact.
Pretext is most glaring in this case by virtue of the fact that the
comments regarding "Hurricane Jamie" relied upon to order the FFD
were not taken as serious threats. The employees who allegedly heard
Jamie make these statements initially reacted by "shrugging it off as
another silly... Jamie Rosado quote." See Exhibit F,.Velazquez Deposition,
18

Page 22 line(s) 2 and 3. At the very least, there is an issue of fact as to
whether the Agency subjected Jamie to discrimination and retaliation by
ordering him to undergo an FFD.
The Agency's purported reasons for ordering the FFD based on Jamie's
statements on August 30, 2011 are pretextual and unworthy of credence.
More telling is the fact that the evidence clearly shows Ronald Lyman did
not require employees who heard these alleged threats to put them in
writing. See Exhibit F, Velazquez Deposition, Page 21 /line(s) 23-25 and
Page 22 line 2. Accordingly, there is an issue of fact of as to whether the
Agency genuinely believed Jamie was a threat to the Newark Field Office
when ordering the FFD. A reasonable factfinder could conclude, based on
the evidence and testimony, that the Agency ordered the FFD in
retaliation for engaging in EEO activity.
This is buttressed by the fact that after Judy Stone followed up with Mike
Ward on September 29, 2011 regarding rescheduling the FFD, Mike Ward
did not respond until November 8, 2011. See Exhibit D, Stone Deposition
Page 32 line(s) 7-10. Jamie's statements could not have been interpreted
as an imminent threat or Mr. Ward would have responded promptly.
Therefore, the Agency's purported reasons for ordering the FFD are
19

pretextual and undermined by the fact Jamie was found fit for duty. See
Exhibit D, Stone Deposition Page 42, line 4.
Moreover, there is a genuine issue of material fact as to whether the
Agency ordered the FFD in retaliation for Jamie engaging in protected
EEO activity where the testimony clearly established that the stressors
listed by Mr. Zielinski had absolutely no bearing on Jamie's work
performance. See Exhibit A, Rosado Deposition page 41. This is
evidenced by the fact Jamie received two consecutive successful
performance ratings while allegedly experiencing the stressors. Id
2)

The Agency's Reasons for Expanding the Inspection Divisions

Investigation are Pretexual in Nature and Genuine Issues of Material
Fact Exists Precluding Summary Judgment
As set forth in more detail below, numerous issues of fact exist regarding
the reasons the Inspection Division investigation was expanded. A
hearing is required to make a finding on these material issues of fact.
There is genuine issue of material fact as to whether the Agency's referral
to the Inspection Division was motivated by discrimination and
retaliation where the evidence clearly establishes Mike Ward that the
"FBI operates via an open-door policy." See ROI Exhibit 22, FBI Bates
20

236. Even though Jamie's signed sworn statement mentioned he could be
subject to disciplinary action for failing to comply with the confidentiality
provision, Jamie was not precluded from reaching out to higher levels of
management if he felt the need without fear of reprisal. Id. Thus,
disputed material issues of fact exist as to whether Mike Ward's referral
to the Inspection Division for insubordination was pretextual by engaging
in prior EEO activity when he specifically stated to Jamie he could go
outside the chain of command to FBIHQ.
Pretext is most evident by the fact that although Jamie did not follow his
chain of command, he felt he was not being properly heard in his office.
Additionally, DD Pistole may have been able to assist with his EEO
matter. See Exhibit G, Rosado Statement September 12, 2011, page 3.
Although he did circumvent the chain of command, he did not feel he was
getting adequate response from NK management and felt it necessary to
reach out to someone at FBIHQ.
The Agency's purported reason for referring Jamie to the Inspection
Division for refusing to accept employment responsibilities is pretextual
and unreliable. More operative, is the fact Jamie received positive,
successful work performance ratings on his 2009 and 2010 PAR. See
21

Exhibit H, Ward Deposition Page 21 line(s) 5-8 and Page 22 line 6. Any
email Jamie sent regarding his work performance was taken out of
context. See Exhibit G, Rosado Statement dated September 12, 2011 page
4. Jamie merely expressed his work performance could suffer as a result
of working under a hostile work environment. ROI Exhibit 21 FBI Bates
243. Thus, the Agency's legitimate, non- discriminatory reason for
referring Jamie to the Inspection Division are pretextual because Jamie's
mere frustration did not rise to a level warranting referral to the
Inspection Division.
Based upon these clear issues of material fact that are in dispute,
the Agency's Motion should be denied in its entirety and a hearing should
be held.
Due to the overlapping issues with the current and subsequent EEO
cases, if your honor feels compelled to consolidate this case with the next
case, we would consent to such consolidation.
The Commission has repeatedly held that if a case can only be resolved by
weighing conflicting evidence, issuing a decision without holding a
hearing is not appropriate. See e.g. McKinnon v. Potter, EEOC Appeal
No. 01200546921 (April 17, 2008). Because Jamie has submitted
22

~ supporting evidence and the credibility of th^T^gency's legitimate, nondiscriminatory reasons are at issue, "there is a need for strident crossexamination and summary judgment on such evidence is improper." See
Pedersen v. Department of Justice, EEOC Request No. 05940339
(February 24, 1995) (holding that where a case can only be resolved by
weighing conflicting evidence, issuing a decision without holding a
hearing is not appropriate). Moreover, because " [t]truncation of this
process, while material facts are still in dispute and the credibility of
witnesses is still ripe for challenge, improperly deprives Jamie of a full
and fair investigation of his claims," (see Bang v. U.S. Postal Serv., EEOC
Appeal No. 01961575 (Mar. 26, 1998)), Summary Judgment in this case is
improper. Jamie has shown enough evidence to raise genuine issues of
material fact regarding whether the Agency's purported reasons were in
fact pretextual. Moreover, there are several issues which should have
been resolved by weighing the conflicting evidence. Taken together, and
in the context of precedent cautioning against summary judgment where
a case presents lingering factual questions as to employer motive, this
evidence is sufficient to defeat the Agency's motion for summary
judgment on Jamie's claims. Specifically, courts have repeatedly
23

cautioned that motions for summary judgment in employment
discrimination actions should be evaluated with special care and greater
caution must be exercised in granting summary judgment in employment
discrimination cases. See Schwapp v. Town of Avon, 118 F.3d 106, 110 (2d
Cir.1997); Belli v. Prendergast, 191 F.3d 129, 135 (2d Cir.1999).
Regarding processing BOTH federal & State of NJ matters, appellant’s
due process rights, right to counsel, Miranda Rights, and Rules of
Discovery were egregiously violated by several Federal, State &
Municipal Authorities. Specifically, his 4th Amendment Right was
violated by the U.S. Marshal’s, Carteret NJ Police Department, District
Court of Newark, NJ, and the Middlesex County Prosecutor’s Office. This
occurred on August 7, 2020, two days after the dismissal of my civil
matter.
A second occurrence of his 4th Amendment Rights were violated on
August 13, 2020, when he arrested by Carteret Police, summoned by the
US Marshals, after engaging the District Court Judge assigned to his
case was entrapped for that response, and an additional 2nd amendment
violation occurred when his legally owned firearms were illegally seized
and a permanent ban occurred as a result.
24

REASONS FOR GRANTING THE WRIT
The District Court prejudices BOTH during & after the matter was
erroneously dismissed require a hearing. Remedies are expected and it
most likely will need to be resolved by a Judge or panel of Judges should
the Supreme Court undertake this complaint. The State charges will
undoubtedly require the Supreme Court’s intervention and result in
petitioner’s State charges vacated, and the return of his firearms and
other restitution.
The petitioner is amenable to remanding the matter back to the
Newark NJ District Court should the U.S. Supreme Court deem that

necessary.

25

1

CONCLUSION
For the foregoing reasons, it is therefore respectfully submitted that
a finding of discrimination and retaliation is warranted, or, at the very
least there are multitudes of issues of material facts in dispute
warranting a hearing.
Mr. Rosado respectfully requests that this Court issue a writ of
certiorari.

Respectfully submitted,
Jameson Rosado, Pro Se

August 3, 2021

26

